CERTIFICATE OF COMPLIANCE
John J. Dierlam
Petitioner
v.
Donald Trump, President, et. al.
Respondents
As required by Supreme Court Rule 33.1(h), I certify that this petition for a writ of
certiorari contains 8948 words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.
Executed on
Date: 1/5/2021
John J. Dierlam
5802 Redell Road
Baytown, TX 77521
Phone: 281-424-2266

i

I

